WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United States

OFFICE OF THE CLERK

JUL 1 3 2021

No. 20-8455
v.

April Ledford
(Petitioner)

Eastern Band of Cherokee Indians
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Pleas
-6- check the appropriate box:
X I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Please check the appropriate box:
O

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

ts1 I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Suprem Court, Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature

July 13, 2021

Date:

(Type or print) Name

Firm

0 Mrs.

0 Miss

The Van Winkle Law Firm

Address

11 N. Market Street

City & State
Phone

Dale A. Curriden
❑ Ms.
DIMr.

Asheville, NC

828-258-2991

Zip
Email

28801

dcurriden@vwlawfirm.corn

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

cc: April Ledford
PO Box 2150
Bryson City, NC 28713

RECEWED
JUL 2 0 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

